Prepared by PrintingHouse Press, Ltd. 10 East 39th Street, New York, NY 10016
Tel No: (212) 719-0990 Fax No: (212) 398-9253
STATE OF NEW YORK

)

COUNTY OF NEW YORK

) SS

Paul Budhu, Being duly sworn, deposes and says that deponent is not party to the action, and is over 18 years
of age.
That on 7/28/2020 deponent caused to be served 1 copy(s) of the within
Petitioner for a Writ of Certiorari
upon the attorneys at the address below, and by the following method:
By Overnight Delivery

By Overnight Delivery

U.S. ATTORNEY'S OFFICE
FOR THE SOUTHERN
DISTRICT OF NEW YORK
Attorneys for Respondent
1 St. Andrew's Plaza
New York, NY 10007
Phone: 212-637-2200

OFFICE OF THE
SOLICITOR GENERAL
Attorneys for Respondent
950 Pennsylvania Ave., NW
Washington, DC 20530
Phone: 202-514-2203

Sworn to me this
Tuesday, July 28, 2020
Antoine Victoria Robertson Coston
Notary Public, State of New York
No.01RO6286515
Qualified in Nassau County
Commission Expires on 7/29/2021

Case Name: Junior Griffin v. United States of America
Docket/Case No:
Index:

